                                                                             Report No. DODIG-2013-079




              I nspec tor Ge ne ral
                                                       Department of Defense


              M AY 2 9 , 2 0 1 3




                     Advanced Combat Helmet Technical
                     Assessment




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
        Our mission is to provide independent, relevant, and timely oversight
        of the Department of Defense that: supports the warfighter;
        promotes accountability, integrity, and efficiency; advises the
            Secretary of Defense and Congress; and informs the public.



                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Advanced Combat Helmet Technical Assessment




May 29, 2013                                                Findings Continued
                                                                Procedures and Tables for Inspection by Attributes). In
Objective                                                       selecting the LAT RTP requirement of 4 percent AQL,
Our objective was to assess the methods and technical           DOT&E considered the government risk of accepting
rationale in developing the Advanced Combat Helmet              underperforming helmets, manufacturer risk of failing
(ACH) testing protocols issued by the Office of the             LAT with acceptable helmets, and historical LAT data.
Director, Operational Test and Evaluation (DOT&E) to            However, DOT&E did not consider selecting an AQL that
determine whether the test protocols are appropriate            was based on the safety criticality of the helmet.
for the ACH. Specifically, our assessment focused on
the First Article Testing (FAT) Resistance to Penetration   C.	 In accordance with authorizing statutes, DOT&E has
(RTP) requirement of at least 90 percent Probability            the authority to establish test standards for personnel
of no Penetration (P(nP)) with 90 percent Confidence            protective equipment such as the ACH. However, despite
Level, commonly termed the “90/90 standard,” and                the significance and broad impact of these protocols,
the Lot Acceptance Testing (LAT) RTP requirement of             DOT&E did not explicitly consult with heads of the
4 percent Acceptable Quality Level (AQL). Lastly, we            Military Departments to provide them an opportunity
assessed the participation of various stakeholders and          to comment on new or changed test protocols and did
industry experts such as active ACH manufacturers and           not adequately document the adjudication of inputs
test facilities.                                                provided by program offices and subject matter experts
                                                                in the staffing process. The program office also did not
                                                                solicit comments on the helmet test protocols with the
Findings                                                        helmet vendors and Defense Contract Management
After reviewing the methods and technical rationale in          Agency (DCMA).
developing the helmet RTP requirements, we found the
following.                                                  D.	 The FAT RTP acceptance was based on an aggregate of
                                                                all test outcomes under varying conditions to achieve
A.	 The DOT&E test protocol for the ACH adopts a                90/90, or 17 penetrations out of 240 shots. This could
    statistically principled approach and represents            result in passing FAT, despite test results showing
    an improvement from the legacy test protocol with           clusters of failures for a unique helmet size or in a
    regard to increased sample size. However, future            particular test environment.
    protocol revisions necessitate further refinement by
    anchoring the RTP requirements to helmet specific
    empirical data such as manufacturing capabilities
                                                            Recommendations
    and test performance.                                   During the course of this assessment, DOT&E and the
                                                            Army’s Program Executive Office (PEO) Soldier were very
B.	 The DOT&E LAT protocol is an improvement from           responsive and have already committed to address most of
    the legacy LAT and adopts a widely established          the findings identified. Our recommendations pertaining to
    and industrially accepted American National             the findings are detailed on the next page.
    Standards Institute (ANSI Z1.4-2008, Sampling

Visit us on the web at www.dodig.mil

                                                                                                         DODIG-2013-079 │ i
                             Results in Brief Continued
                             Advanced Combat Helmet Technical Assessment




  Recommendations Continued

  Recommendation for Finding A. Origin of                           We recommend that DOT&E include an explicit statement in
  Resistance to Penetration Requirements                            future protocol revisions that allows program managers to
                                                                    modify the test protocols, provided that program managers
  We recommend that DOT&E and PEO Soldier fully characterize
                                                                    submit a well-justified request for approval.
  the performance of all helmet designs included in the combat
  helmet test protocols. Performance characterization should
  consider threat, historical test data, prototype test data, and   Recommendation for Finding D. Evaluation of
  manufacturing capabilities. Based on helmet performance           Aggregate Test Results
  characterizations, DOT&E and PEO Soldier should determine         We recommend that DOT&E and PEO Soldier describe the
  if modification to the FAT and LAT protocols are appropriate.     method of identifying and addressing statistically significant
                                                                    differences in performance due to environmental conditions,
  Recommendation for Finding B. Acceptable                          helmet sizes, shot locations, and different vendor designs for
  Quality Level Based on Safety Criticality                         all FAT results under the DOT&E helmet test protocol.

  We recommend that in addition to considerations made
                                                                    We recommend that PEO Soldier and Defense Logistics
  to Government risk, manufacturer risk, and historical LAT
                                                                    Agency (DLA) consider the contractual implications of not
  data, DOT&E should also consider the safety criticality of the
                                                                    fielding an ACH design that passes FAT yet shows significant
  helmet in establishing the AQL requirement for LAT RTP in
                                                                    clusters of inadequate performance.
  future protocol revisions.


  Recommendation for Finding C. Coordination of                     Overall DOT&E and PEO Soldier
  Helmet Test Protocols                                             Comment
  Due to the significance and broad impact of these protocols,      DOT&E and Program Executive Office (PEO) Soldier have
  we recommend that DOT&E ensure the affected organizations,        reviewed the referenced report and agree with the findings
  including heads of the Military Departments, are consulted in     and recommendations.
  developing the protocols and have an opportunity to provide
  input on new or changed test protocols. DOT&E should also
  ensure that inputs received are documented and adjudicated.       Overall DoD OIG Response
                                                                    DOT&E and PEO Soldier’s comments were fully responsive.
  We recommend that PEO Soldier solicit input from helmet           We reviewed their response and have additional points
  vendors and DCMA on new or changed test protocols.                for consideration. However, no additional comments are
  PEO Soldier should also ensure that inputs received are           required.
  documented and adjudicated.




ii │ DODIG-2013-079
                                INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500




                                                                            May 29, 2013

MEMORANDUM FOR DIRECTOR, OPERATIONAL TEST AND EVALUATION
              U.S. ARMY PROGRAM EXECUTIVE OFFICE, SOLDIER

SUBJECT: The Advanced Combat Helmet (ACH) Technical Assessment (Project
         No.D2012-DT0TAD-0007.000)

This final report is provided for information and use. On July 13, 2012, the DoD Office
of Inspector General (OIG) announced the ACH Technical Assessment in response to a
request from Representative Louise M. Slaughter to review the current testing protocols
for ACHs. During the assessment, we found that the helmet test protocols are an
improvement from legacy protocols. The first article test protocol adopts a statistically
principled approach and the lot acceptance test protocol adopts a widely established and
industrially accepted sampling procedure. We provided our findings and
recommendations for review and determined that your comments were fully responsive.

We appreciate the courtesies extended to the staff. For additional information on this
report, please contact Al Dopita at (703) 699-0220 (DSN 664-0220), or
alois.dopita@dodig.mil.




                                             Randolph Stone
                                             Deputy Inspector General
                                             Policy and Oversight




                                                                                         DODIG-2013-079 │ iii
                  Contents

                  Introduction
                  Objective _________________________________________________________________________________________1
                  Background ______________________________________________________________________________________2

                  Notice of Concern ___________________________________________________________________7
                  Finding A
                  Origin of Resistance to Penetration Requirements____________________________________________9
                  Discussion________________________________________________________________________________________9
                  DOT&E Assessment Discussions______________________________________________________________ 10
                  Recommendation______________________________________________________________________________ 11
                  DOT&E and PEO Soldier Comments__________________________________________________________ 11
                  DoD OIG Response_____________________________________________________________________________ 12

                  Finding B
                  Acceptable Quality Level Based on Safety Criticality________________________________________ 13
                  Discussion______________________________________________________________________________________ 13
                  DOT&E Assessment Discussion ______________________________________________________________ 14
                  Recommendation______________________________________________________________________________ 14
                  DOT&E and PEO Soldier Comments__________________________________________________________ 15
                  DoD OIG Response_____________________________________________________________________________ 15

                  Finding C
                  Coordination of Helmet Test Protocols_______________________________________________________ 16
                  Discussion______________________________________________________________________________________ 16
                  DOT&E Assessment Discussion ______________________________________________________________ 19
                  Recommendations_____________________________________________________________________________ 19
                  DOT&E and PEO Soldier Comments__________________________________________________________ 20
                  DoD OIG Response_____________________________________________________________________________ 20




iv │ DODIG-2013-079
Finding D
Evaluation of Aggregate Test Results ________________________________________________________ 21
Discussion______________________________________________________________________________________ 21
DOT&E Assessment Discussion ______________________________________________________________ 22
Recommendations_____________________________________________________________________________ 23
DOT&E and PEO Soldier Comments__________________________________________________________ 23
DoD OIG Response_____________________________________________________________________________ 23

Appendices
Appendix A. Use of Technical Assistance_____________________________________________________ 25
Appendix B. Representative Slaughter’s Letter to the DoD Office of Inspector General__ 26
Appendix C. Clopper-Pearson Method_ ______________________________________________________ 28
Appendix D. Notice of Concern and Notice of Concern Resolution_________________________ 29
Appendix E. Office of the Director, Operational Test and Evaluation and Program
Executive Office Soldier Comments___________________________________________________________ 38

Acronyms and Abbreviations _____________________________________________ 41




                                                                                                      DODIG-2013-079 │ v
                                                                                                       Introduction




Introduction
Objective
This report is in response to a request from Representative Louise M. Slaughter, which can
be found in Appendix B. Representative Slaughter requested on June 26, 2012, that the
DoD Office of Inspector General (OIG) review the current testing protocols for Advanced
Combat Helmets (ACHs), expressing concerns that:

                 … recent modification to the standard for ballistic testing for ACHs
                 would allow up to 17 penetrations out of 240 test shots. The re-
                 sult of that standard is a 90% probability of no perforation [pen-
                 etration] with 90% confidence during first article testing. I am
                 concerned that a standard that allows 17 penetrations puts con-
                 tractors above the need to produce effective and consistent equip-
                 ment for the men and women of the military.

                 While procurement standards have improved in recent years, the
                 current standard poses an unacceptably high risk for equipment
                 intended to protect American lives.

Our objective was to assess methods and technical rationale in developing ACH testing
protocols issued by the Office of the Director, Operational Test and Evaluation (DOT&E)1
to determine whether the test requirements are appropriate for the ACH. Specifically,
our assessment focused on First Article Testing (FAT) Resistance to Penetration (RTP)
requirement of least 90 percent Probability of no Penetration (P(nP)) with 90 percent
Confidence Level, commonly termed the “90/90 standard,” and Lot Acceptance Testing
(LAT) RTP requirement of 4 percent Acceptable Quality Level (AQL). We assessed the
participation of various stakeholders and industry experts, including the DOT&E-man-
dated test facility and ACH manufacturers. We also evaluated the RTP requirements of
the legacy ACH FAT and LAT protocols for comparison. (See Appendix A for discussion of
our scope and methodology)



	1	
      Protocols reviewed were:
		 “Military Combat Helmet Standard for Ballistic Testing” issued December 7, 2010
		 “Military Combat Helmet Standard for Ballistic Testing” issued September 20, 2011
		 “Military Combat Helmet Standard for Ballistic Lot Acceptance Testing” issued January 19, 2012
		 “Military Combat Helmet Standard for Ballistic Lot Acceptance Testing” issued May 4, 2012




                                                                                                    DODIG-2013-079 │ 1
Introduction



                 Background
                 Advanced Combat Helmet
                 The ACH replaces the Personnel Armor System, Ground Troops (PASGT) Helmet for
                 general use by the U.S. Army. The ACH consists of a finished ballistic protective shell,
                 pad suspension system, a retention system (chin strap/nape strap), cover, and eyewear
                 retention strap. The Acquisition Decision Memorandum (ADM) for the ACH was approved
                 on January 8, 2003, with the goal of modifying the PASGT Helmet outer shell geometry,
                 while at the same time applying material technology advancements to reduce the weight
                 and maintain protection against fragmentation of 9mm small arms munitions.
                                                     Head Protection Timeline
                 Figure 1. Combat Helmet Design Evolution

                                                                                                                                                          Light Weight ACH Solicitation
                                                                                                                                                                    Released
                                                                                                                                                             8% Reduction in Weight


                                                                                                                                                                                                         Jan
                                                                                                    Helmet Sensor                                                                         Sep           2012
                                                                                                        Gen I                                                                             2012

                                                                                                                                                          Oct
                                                                                                                                                          2011
                                   ACH Fielding                                                                                                                                                     DOT&E Publishes
                                     (initial)                                                                                                                                                       combat helmet
                                                                   Pad improvement                                                        Dec
                                                                                                                                                                                                         LAT
                                                                 impact level increase                              ACH Sustainment      2010
                                  Helmet weight                  to 150g max at 10 fps                                                                                  Nov
                                  Decrease from                                                                        activities
                                                                                                                                                                        2011
                                  3.5 lb to 3.0 lb
                                     (approx.)
                                                                                           Mar                                        DOT&E Publishes
                                                                                          2007                                         combat helmet                               ECH w/ increased
                                                                                                                        Nov                FAT                                     protection against
                                                                                                                       2008                                                        “select small arms
                                                         Jan                                             Sep
                                                                                                        2007                                                                            threats”
                                                        2005                                                                                            Helmet Sensor
                                                                                                                                                           GEN II
                      1980-2002                                          Dec
                                                                         2006


                                  2002-Present                                           NAPE Pad



                                                      ACH Cover in
                                             UCP caprint with IFF introduced




                     PASGT Helmet




                 Figure 1 provides the evolution of combat helmet design and depicts that initial fielding
                 of the ACH began in 2002. Pad improvements occurred in 2006 and 2007. For example,
                 helmet sensors were developed to detect when a helmet has been subjected to a force
                 strong enough to cause brain injury. More recent efforts are underway to reduce the
                 weight of the ACH and develop a helmet with increased protection against select small
                 arms threats.

                 Program Executive Office (PEO) Soldier, Product Manager/Soldier Protective Equipment
                 (PM/SPE), is the program office responsible for developing and managing the ACH




2 │ DODIG-2013-079
                                                                                                                              Introduction



product specification. PEO Soldier was responsible for the initial fielding of the ACH using
equipping funds beginning in August 2005. Sustainment activities began in November
2008 when Defense Logistics Agency Troop Support (DLA TS) became responsible for
ACH procurements. However, PEO Soldier retains responsibility for life cycle management
of the system, including the product description and technical specifications. PEO Solider
also assists DLA TS in evaluating vendors for sustainment procurements.

There are currently two active ACH sustainment bridge contracts to procure ACHs with
design specifications detailed in Contract Purchase Description “CO/PD-05-04,” October
30, 2007 (most recently updated on March 24, 2009). The first is a bridge contract to
Gentex Corporation (contract number SPM1C1-12-C0016) and the second to Mine Safety
Appliances (contract number SPM1C1-12-C0019), each for 90,000 helmets (180,000
helmets total). A third contract solicitation to produce a lightweight ACH (8 percent
weight reduction), has yet to be awarded. The bridge contracts follow the ballistic testing
requirements of the legacy test protocol, and the lightweight ACH solicitation will follow
ballistic testing requirements of the DOT&E test protocols. Table 1 lists all active ACH
procurements.

Table 1. ACH Contracts and Solicitation 2
      Procurement              Vendor           Contract Number               Award Date              Ballistic Testing
 ACH Production            Gentex                                                                  Legacy Test Protocol
                                               SPM1C1-12-C-0016               May 7, 2012
 Bridge Contract           Corporation                                                             (CO/PD-05-04)
 ACH Production            Mine Safety                                                             Legacy Test Protocol
 Bridge Contract           Appliances2         SPM1C1-12-C-0019              June 14, 2012         (CO/PD-05-04)
                                                                                                   Incorporated DOT&E
                                                                                                   Protocol
 Lightweight ACH           TBD                          TBD                        TBD             (AR/PD 10-02 Rev A
                                                                                                   with Change 4)




ACH RTP Performance Requirements
The ACH is designed to provide ballistic protection from fragments as well as 9mm
projectiles. The helmet shell, including any hardware exposed on the outside of the shell,
is designed to be resistant to a 9mm Full Metal Jacketed Round Nose (FMJ RN) Remington
bullet penetration with a nominal mass of 124 grains. The 9mm FMJ RN ballistic test
is an industry standard adopted from the National Institute of Justice (NIJ) Standard
0101.06, “Ballistic Resistance of Body Armor.” It was also derived from the Operational
Requirements Document (ORD) for the Land Warrior, which outlines the requirements


	2	
      The division of Mine Safety Appliances that produced ACHs was purchased by Revision Military Limited in June 2012.




                                                                                                                           DODIG-2013-079 │ 3
Introduction



                 and operational capability needs of an integrated soldier protection and equipment
                 system. The ORD states that the greatest threat to the land warrior is fragmentation and
                 the second greatest threat is bullets. For the ACH, the 9mm FMJ RN test does not only
                 represent a capability to be resistant against bullets but also larger sized fragments.

                 The ACH is not designed to provide ballistic protection from threats more lethal (for
                 example, higher velocity, or larger mass) than a 9mm FMJ RN. Field data indicate that the
                 ACH performs well against its intended threats, but is penetrable from rifle threats that
                 are most commonly seen in theater. A new product called the Enhanced Combat Helmet
                 (ECH) is currently under design and development to defeat threats more lethal than a
                 9mm FMJ RN.


                 ACH RTP Ballistic Testing
                 According to contract requirements, the ACH is required to undergo FAT and LAT. FAT
                 is conducted on a specified sample size and determines whether the proposed product
                 and manufacturing design meets testing requirements prior to proceeding to production.
                 LAT determines whether a produced lot meets testing requirements prior to delivery.
                 Both FAT and LAT for the ACH consists of non-ballistic and ballistic test and inspection
                 requirements. This report focuses on the RTP ballistic testing requirements.

                 ACH RTP ballistic testing for the helmet consists of firing 9mm projectiles at a defined
                 velocity and distance from the helmet to demonstrate a required level of penetration
                 protection. RTP test requirements include the acceptable number of complete 9mm FMJ
                 RN penetrations3 for each sample size.


                 DOT&E Role in Combat Helmet Testing
                 In 2007, both the House Armed Services Committee and Senate Armed Services Committee
                 wrote to the Secretary of Defense expressing their desire and support for DOT&E
                 involvement in body armor testing. The United States Congress amended Public Law 110-
                 417, “Duncan Hunter National Defense Authorization Act for Fiscal Year 2009,” to expand
                 the Secretary of Defense’s authority to designate programs for realistic survivability
                 testing. The Secretary of Defense subsequently authorized DOT&E’s involvement in body
                 armor testing and updated DoD Directive 5141.02, “Director of Operational Test and
                 Evaluation,” to state that DOT&E shall prescribe policies and procedures for the conduct of


                 	3	
                       According to AR/PD 10-02 Rev A with Change 4, May 8, 2012, “Purchase Description Helmet, Advanced Combat (ACH),”
                       complete penetration shall be defined as complete perforation of the shell by the projectile or fragment of the projectile
                       as evidenced by the presence of that projectile, projectile fragment, or spall (fragments of the test helmet being impacted,
                       excluding fibrous material, paint, and epoxy particles emitted from the helmet surface) in the clay, or by a hole which
                       passes thru the shell.




4 │ DODIG-2013-079
                                                                                                                                  Introduction



Live Fire Test and Evaluation (LFT&E). LFT&E includes Personnel Protective Equipment
(PPE) testing such as hard body armor, soft body armor, and helmets.

In response to a January 2009 DoD OIG Report No. D-2009-047, “DoD Testing Requirements
for Body Armor,” DOT&E published the hard body armor FAT protocol on April 27, 2010,
and the LAT protocol on July 2, 2010. On December 7, 2010, DOT&E published the Military
Combat Helmet Standard for Ballistic Testing FAT applicable to all DoD combat helmet
acquisition programs, including the ACH. The DOT&E FAT protocol states that combat
helmets must meet a set of statistically based FAT to qualify a design/manufacturing
process for full-rate production. The FAT protocol was updated on September 2, 2011,
to include both aramid-based helmets, such as the ACH and Lightweight Helmet (LWH),
and ultra-high molecular polyethylene-based helmets, such as the ECH, designed to
defeat threats more lethal than a 9mm FMJ RN. On January 19, 2012, DOT&E released the
Military Combat Helmet Standard for Ballistic Lot Acceptance Testing protocol, detailing
test requirements that must be met prior to accepting a production lot from a vendor.
It was updated on May 4, 2012, with revisions to the RTP test matrix for aramid-based
helmets.


FAT RTP Requirements
The FAT RTP legacy requirements used by ACH bridge contracts were established in the
Contract Purchase Description “CO/PD-05-04,” October 30, 2007 (most recently updated
on March 24, 2009). CO/PD-05-04 requires a sample size of four helmets tested under
different environmental conditions and shot five times. Under CO/PD-05-04, one pen-
etration of the total 20 shots will result in a failed FAT. The sample size and number of
allowable penetrations are not derived from a known statistical model.

In contrast to the legacy FAT RTP requirement, the DOT&E FAT RTP requirement is statis-
tically based. The FAT RTP requirement increases the sample size to 48 helmets at 5 shots
per helmet, totaling 240 shots based on an established “90/90 standard.”4 An increase in
sample size increases the statistical confidence of the testing result.

The Clopper-Pearson method is used to calculate the allowable number of penetrations
out of a given sample size. When applied against the required parameters (90/90 and 240
shots), the Clopper-Pearson method yields 17 allowable penetrations. A more detailed
explanation of the Clopper-Pearson method can be found in Appendix C. Table 2 shows a
comparison of the legacy FAT RTP and DOT&E FAT RTP.


	4	
      The commonly termed “90/90 standard” for First Article Testing (FAT) Resistance to Penetration (RTP) requirement is at
      least 90% Probability of no Penetration (P(nP)) with 90% Confidence Level.




                                                                                                                               DODIG-2013-079 │ 5
Introduction



                 Table 2. Comparison of FAT RTP Protocols
                                                                                             Immerse in                          # Allowable
                        9 mm RTP         Ambient             Hot                Cold          Seawater,                          Penetrations
                                                                                                                  Totals
                          shell           70o F             160o F             -60o F        then test at                          Accept/
                                                                                                70o F                               Reject
                     Legacy test        5 shots          5 shots           5 shots           5 shots           20 shots
                     protocol                                                                                                          0/1
                                        1 helmet         1 helmet          1 helmet          1 helmet          4 helmets
                     sample size
                     DOT&E test         60 shots         60 shots          60 shots          60 shots          240 shots
                     protocol                                                                                                       17/18
                                        12 helmets       12 helmets        12 helmets        12 helmets        48 helmets
                     sample size



                 LAT RTP Requirements
                 The legacy LAT RTP requirement used by ACH bridge contracts were also established in
                 CO/PD-05-04. CO/PD-05-04 defines the sample size per lot size delivered in Table 3, and
                 specifies that one 9mm penetration will result in a failed lot regardless of the lot size.

                 Table 3. Legacy LAT RTP
                                           Lot Size        Sample Size          Accept         Reject
                                                           5 shots
                                        4-150                                      0              1
                                                           1 helmet
                        9 mm RTP
                          shell                            5 shots
                                        151-1,200                                  0              1
                                                           1 helmet
                                                           10 shots
                                        1,201-3,200                                0              1
                                                           2 helmets


                 In contrast to the legacy LAT, the DOT&E LAT RTP requirement is 4 percent AQL.5 The
                 sampling plan to determine the accept/reject criteria is based on the American National
                 Standards Institute (ANSI) American Society for Quality (ASQ) Z1.4-2008 with a special in-
                 spection level S-3. These translate to the sample size and accept/reject criteria in Table 4.

                 Table 4. DOT&E LAT RTP
                                           Lot Size        Sample Size          Accept         Reject
                                                           25 shots
                                        91-150                                     0              1
                                                           5 helmets
                                                           40 shots
                        9 mm RTP        151-500                                    1              2
                                                           8 helmet
                          shell
                                                           65 shots
                                        501-1,200                                  1              2
                                                           13 helmets
                                                           65 shots
                                        1,200+                                     1              2
                                                           13 helmets


                 	 5	
                        According to ANSI/ASQ Z1.4-2008, AQL is the quality level that is the worst tolerable process average when a continuing
                        series of lots is submitted for acceptance sampling.


6 │ DODIG-2013-079
                                                                                                                                             Introduction



Implementation of DOT&E Helmet Test Protocols
Because the DOT&E FAT and LAT protocols are not intended to be applied against already
qualified designs, the ACH bridge contracts SPM1C1-12-C-0016 and SPM1C1-12-C0019
were precluded from implementing the DOT&E test protocol requirements. However,
PEO Soldier was required to incorporate the DOT&E test protocols in the lightweight
ACH specification. The incorporated test protocols are detailed in the Contract Purchase
Description, “AR/PD 10-02 Rev A with Change 4,” May 8, 2012.

In “AR/PD 10-02 Rev A with Change 4,” PEO Soldier established a “hybrid FAT” and a “hy-
brid LAT” in an effort to combine the legacy test protocols with the DOT&E test protocols.
The hybrid FAT requires that the first 22 shots yield zero penetrations prior to conduct-
ing the full DOT&E FAT protocol.6 The hybrid LAT requires that the first 5 or 10 shots
(depending on lot size) yield zero penetrations prior to conducting the full DOT&E LAT
protocol. According to PEO Soldier, the hybrid test strategy ensures that the pedigree of
the past helmet’s testing requirements continues into the lightweight ACH procurement.
Both RTP hybrid FAT RTP and LAT RTP summaries are depicted in Figure 2 and 3.

Figure 2. Hybrid FAT RTP

                                 Zero (0)         Testing Continues      Results Analyzed        ≤ Seventeen (17)     90/90 is Met
                                 Penetrations                                                    Penetrations
                                                        Conduct Full         90/90 Assessed                                    Design
                                                          DOT&E              for Acceptance                                  Passes Test
                                                          Protocol
       9mm RTP Testing

                First
             22 Impacts
           (at least 5 impacts
           in each condition)
                                  ≥ One (1)       Testing Stopped                                > Seventeen (17)     90/90 is not Met
                                  Penetration                                                    Penetrations
                                                           Design                                                              Design
                                                          Fails Test                                                          Fails Test



Figure 3. Hybrid LAT RTP
                                                                                              Lot Size 91 – 150:
                            Zero (0)
                                                Testing Continues      Results Analyzed       0 Penetration           Accept/Reject
                            Penetrations                                                      Lot Size 151 – 500:     Criterion is Met
                                                    Conduct Full            Accept/Reject     1 Penetration
                                                   DOT&E Protocol             Criterion
                                                                                              Lot Size 501 – 1200:
                                                                                              1 Penetration
                                                                                                                               Design
                                                                             Assessed for     Lot Size 1201 – 3200:          Passes Test
                                                                                              1 Penetration
       9mm RTP Testing                                                       Acceptance
            First 5 or 10
              Impacts
           (based on lot size)
                                                                                              Lot Size 91 – 150:
                                                  Testing Stopped                             1 Penetration
                                                                                                                      Accept/Reject
                                 ≥ One (1)
                                 Penetration                                                  Lot Size 151 – 500:     Criterion is not Met
                                                           Design                             2 Penetration

                                                          Fails Test
                                                                                              Lot Size 501 – 1200:             Design
                                                                                              2 Penetration
                                                                                              Lot Size 1201 – 3200:           Fails Test
                                                                                              2 Penetration


	 6	
       The Clopper-Pearson method for binomial confidence intervals requires a minimum sample size of 22.
       -David W. Webb, Army Research Laboratory, A Comparison of Various Methods Used to Determine the Sample Size
       Requirements for Meeting a 90/90 Reliability Specification, March 2011, page 28




                                                                                                                                         DODIG-2013-079 │ 7
Notice of Concern




                 Notice of Concern
                 We issued a Notice of Concern (NOC) to DOT&E and PEO Soldier on September 12, 2012,
                 stating concerns regarding the implementation of the new helmet protocol in the light-
                 weight ACH solicitation. We recommended that PEO Soldier, DOT&E, and DLA TS work
                 together to ensure that there is no reduction in helmet performance for the new light-
                 weight ACH. DOT&E released a coordinated response with PEO Soldier and DLA TS on
                 October 12, 2012, detailing an initial set of plans to address the NOC.

                 A memorandum signed by the Deputy Inspector General for Policy and Oversight was is-
                 sued on December 5, 2012, to document concerns with the helmet protocols and actions
                 that DOT&E and PEO Soldier will take to address those concerns. The memorandum also
                 concluded that the NOC was resolved by DOT&E and PEO Soldier’s commitments to ad-
                 dress the issues in light of their October 12, 2012, NOC response. A copy of the NOC and
                 the resolution memorandum is in Appendix D.




8 │ DODIG-2013-079
                                                                                                                                     Finding A




Finding A
Origin of Resistance to Penetration Requirements
The DOT&E test protocol for the ACH adopts a statistically principled approach and
represents an improvement from the legacy test protocol with regard to increased sample
size. However, future protocol revisions necessitate further refinement by anchoring the
RTP requirements to helmet specific empirical data such as manufacturing capabilities
and test performance.



Discussion
Hard Body Armor Test Protocol Studies
On January 29, 2009, the DoD OIG issued an audit report on DoD Testing Requirements
for Body Armor (Report No. D-2009-047, “DoD Testing Requirements for Body Armor”)
and recommended that DOT&E develop a test operations procedure for body armor in-
serts and verify that the procedure is implemented DoD-wide. In response to the DoD OIG
report, DOT&E and PEO Soldier collaborated with the Army Test and Evaluation Center
(ATEC) to conduct a comprehensive technical assessment of the hard body armor. The
technical assessment included ballistic performance evaluation of the Enhanced Small
Arms Protective Insert and the X Threat Small Arms Protective Insert against a set of
defined threats. DOT&E used the results of the study to establish the body armor test
protocols. On April 27, 2010, DOT&E issued the hard body armor FAT protocol, defining
FAT RTP 90/90 standard for the first test shot and a 70/90 for the second test shot.

DOT&E also commissioned the National Academies7 to assess the methodologies used
by the U.S. Army for body armor testing and assist in addressing shortcomings that had
been reported by the Government Accountability Office and the DoD OIG. The National
Academies released the results of their assessment in three phases.8 The Phase II report
addressed DOT&E’s statistically based body armor test protocol and concluded that, “The
new DOT&E [hard body armor] protocol meets both key protocol design requirements; it
is statistically principled and it provides a minimum DoD-wide body armor test standard.”




	7	
    The National Academies is composed of the National Academy of Sciences, National Academy of Engineering, Institute of
    Medicine, and National Research Council. These organizations are private, nonprofit institutions that consist of elected
    members with distinguished achievement in their respective fields. The National Academies is known for providing
    objective advice on science, engineering, and health matters. Source: http://www.nas.edu
	8	
    The Phase I report was released on December 30, 2009, Phase II on April 22, 2010, and Phase III on May 21, 2012.




                                                                                                                               DODIG-2013-079 │ 9
Finding A



                 The National Academies recommended that DOT&E implement a statistically based LAT
                 that incorporates aspects of military standard MIL-STD-1916, “DoD Preferred Methods
                 for Acceptance of Product.” Subsequently, DOT&E released the body armor LAT protocol
                 on July 2, 2010 with a defined LAT RTP requirement of 4 percent AQL for the first test shot
                 and 15 percent AQL for the second shot. The National Academies did not recommend
                 specific RTP requirements for LAT.

                 The National Academies also recommended that standards in the protocol should be based
                 on empirical evidence. However, DOT&E stated there is not a comparable body of data
                 that characterizes the performance of the ACH. DOT&E also stated in a memorandum to
                 Representative Slaughter, dated July 13, 2012, that the ACH test protocols were developed
                 to be analogous to the body armor test protocols. Although DOT&E established a helmet
                 test protocol that adopts a statistically principled approach and represents an improve-
                 ment from the legacy test protocol, the protocol’s RTP requirements are not anchored to
                 helmet specific empirical data such as manufacturing capabilities and test performance.


                 Common RTP Requirements Across PPEs
                 It was DOT&E’s intent to publish common RTP requirements across all PPEs. According
                 to DOT&E, one of the driving factors for a common standard is public perception. If each
                 individual type of PPE had specific standards, questions may arise as to why one PPE had
                 a lower standard than another. DOT&E also stated that it would be potentially difficult
                 and unmanageable to have individual protocols and designs for each piece of PPE. Fur-
                 thermore, DOT&E stated that a common standard would provide some level of assurance
                 that all fielded commodities have a minimum level of performance.

                 DOT&E referenced the DoD OIG audit report on body armor and a series of studies con-
                 ducted by the National Academies from 2009 to 2012 on body armor. The DoD OIG re-
                 port states that DoD does not have standardized ballistic testing criteria for body armor
                 inserts. Additionally, the National Academies Phase III report on body armor stated that
                 an encompassing standard for testing would include alignment of body armor and helmet
                 testing procedures and processes. However, neither of the two referenced reports pre-
                 scribe common parameters such as the FAT RTP 90/90 standard or LAT RTP of 4 percent
                 AQL across all PPEs.


                 DOT&E Assessment Discussions
                 During the course of our assessment, DOT&E and PEO Soldier committed to fully
                 characterizing the performance of the ACH in response to our NOC detailed in Appendix
                 D. DOT&E also indicated that it will also work with the Marine Corps to characterize




10 │ DODIG-2013-079
                                                                                                Finding A




the performance of ECH. DOT&E will provide the details of the plans to characterize the
helmets to the DoD OIG when the respective plans are approved. DOT&E added that as
new designs/technology become available, it will consider the characterization of those
designs during developmental testing to assess whether any changes to the test protocol
may be appropriate.

DOT&E acknowledged that the performance metrics incorporated in test standards used
for PPE should be empirical, based on the data generated by characterization studies con-
ducted on the individual elements of PPE using the appropriate threats. DOT&E stated
that deviating from a 90/90 standard could be appropriate, based on the performance
revealed by these characterization studies against the specified threats. DOT&E consid-
ers the established test standards for hard body armor plates and helmets that reflect a
common metric to have elements that are generally applicable to all PPE. Specifically, the
standards for PPE testing must be as statistically principled and rigorous.

DOT&E also commissioned the National Academies on August 15, 2012, to determine the
adequacy of their military ballistic helmet testing. DOT&E estimates that the National
Academies will complete its study by December 2013.


Recommendation
We recommend that DOT&E and PEO Soldier fully characterize the performance of all
helmet designs included in the combat helmet test protocols. Performance characterization
should consider threat, historical test data, prototype test data, and manufacturing
capabilities. Based on helmet performance characterizations, DOT&E and PEO Soldier
should determine if modification to the FAT and LAT protocols are appropriate.


DOT&E and PEO Soldier Comments
Characterization on fielded ACH will rely on historical test data since the Army does not
intend to buy additional ACH designs. We will conduct additional testing to characterize
helmets not currently fielded, such as the Lighweight ACH, the Enhanced Combat Helmet
(ECH), the Soldier Protective System Integrated Head Protection System (SPS IHPS). This
characterization will be based on a risk assessment that identifies and documents the
testing that provides the most important data, since it is unrealistic to scope a charac-
terization effort that includes every desirable test. Based on the characterization data,
DOT&E will determine whether FAT and LAT protocols should be modified.




                                                                                         DODIG-2013-079 │ 11
Finding A



                 DoD OIG Response
                 DOT&E and PEO Soldier’s comments were fully responsive. In addition to the response,
                 we recommend that the characterization include the Industry’s state of the art with re-
                 gard to controlling manufacturing parameters of the design. No additional comments
                 from DOT&E and PEO Soldier are required.




12 │ DODIG-2013-079
                                                                                                                                     Finding B




Finding B
Acceptable Quality Level Based on Safety Criticality
The DOT&E LAT protocol is an improvement from the legacy LAT and adopts a widely
established and industrially accepted American National Standards Institute (ANSI Z1.4-
2008, Sampling Procedures and Tables for Inspection by Attributes). In selecting the LAT
RTP requirement of 4 percent AQL, DOT&E considered the government risk of accepting
underperforming helmets, manufacturer risk of failing LAT with acceptable helmets, and
historical LAT data.9 However, DOT&E did not consider selecting an AQL that was based
on the safety criticality of the helmet.



Discussion
LAT Sampling Plan                         9


The DOT&E LAT RTP sampling plan was derived from a widely established and industri-
ally accepted ANSI Z1.4 -2008. Sampling plans are particularly applicable to destructive
testing10 such as the 9mm RTP test performed during LAT, when not all helmets in a given
lot can be tested. The DOT&E LAT RTP sampling plan is derived from inspection level
S-3.11 ANSI Z1.4-2008 also provides reference to operating characteristic curves to deter-
mine the government risk and manufacturer risk at a given AQL.


AQL Selection Based on Criticality
Although the use of a widely established standard represents an improvement from
the legacy LAT, DOT&E did not consider selecting an AQL that was based on the safety
criticality of the helmet. The Land Warrior Operational Requirements Document (ORD)
states that the primary function of the helmet is to protect the Land Warrior’s head from
fragmentation and bullets and therefore, a helmet is considered a safety critical item and
resistance to penetration is considered a critical characteristic.

If a sampling plan is not specified in the contract, the Defense Contract Management
Agency (DCMA)12 will implement DCMA Instruction 226-3, “Critical Safety Items


	9	
       Government risk is the probability of accepting underperforming helmets while manufacturer risk is the probability of
       failing LAT with acceptable helmets
	10	
       Destructive testing is a test that puts the sample object under certain circumstances until it actually fails.
       -H.F. Walker, A.K. Elshennawy, B.C. Gupta, M. McShane-Vaughn, The Certified Quality Inspection Handbook, Second Edition,
       (Milwaukee: American Society for Quality, 2013) page 186.
	11	
       Per ANSI Z1.4, the inspection level determines the relationship between the lot or batch size and the sample size.
	12	
       The DCMA was established to perform contract administration for the Department of Defense. DCMA is expected to




                                                                                                                              DODIG-2013-079 │ 13
Finding B



                 (CSIs)” and Instruction 226-4, “Product Examination – Quality Assurance (QA).” DCMA
                 Instruction 226-3 and Instruction 226-14 both state that non-aviation CSI includes
                 personal protective devices and that 0.4 percent AQL is applied for non-aviation CSIs. In
                 addition to the DCMA requirement of 0.4 percent AQL, ACH manufacturers indicated that
                 they recommend, and are currently working to a 0.4 percent AQL. Lastly, The Certified
                 Quality Process Analyst Handbook published by the American Society for Quality13 states
                 that in practice, critical characteristics are commonly inspected to an AQL of 0.4 to 0.65
                 percent if not 100 percent inspected.

                 In summary, the DCMA instruction, manufacturer capabilities, and industry standards
                 warrant tighter constraints on components or assemblies used in safety critical applica-
                 tions, thus setting the AQL at a lower level will, over a continuing series of lots, provide
                 the worst tolerable process average appropriate for a safety critical item.


                 DOT&E Assessment Discussion
                 Per DOT&E, the new LAT protocol increases the sample size used for LAT and, in doing
                 so, decreases the risks to the government of accepting underperforming helmets because
                 helmet lots under the previous protocol had a higher chance of passing LAT. DOT&E also
                 considered the risk to the manufacturer of failing LAT if the manufacturer consistently
                 produces helmets with acceptable performance. Per DOT&E, the new and old LAT proto-
                 cols have similar manufacturer’s risk for a helmet. By decreasing government risk while
                 maintaining similar manufacturer’s risk, DOT&E stated that the LAT protocol has clearly
                 improved upon the previous LAT. DOT&E has provided the LAT protocol to the National
                 Research Council (NRC) committee on helmet testing and asked the committee to evalu-
                 ate the construction of the current LAT protocol and to provide its views on how best to
                 relate AQL to FAT performance.


                 Recommendation
                 We recommend that in addition to considerations made to Government risk, manufactur-
                 er risk, and historical LAT data, DOT&E should also consider the safety criticality of the
                 helmet in establishing the AQL requirement for LAT RTP in future protocol revisions.




                        operate in an independent, consistent, transparent, and collaborative manner while performing a wide variety of contract
                        oversight functions. For the ACH program, DCMA is required to prepare surveillance strategies for all ACH contracts to
                        include product audits and inspections. DCMA provide oversight at manufacturing facilities and testing facilities. However,
                        they do not conduct in-process inspections and will no longer need to provide ballistic test surveillance when ACH ballistic
                        testing begins at ATEC.
                 	13	
                        E.H. Christensen, K.M. Coombes-Betz, M.S. Stein, The Certified Quality Process Analyst Handbook, (Milwaukee: American
                        Society for Quality, 2007)




14 │ DODIG-2013-079
                                                                                            Finding B



DOT&E and PEO Soldier Comments
DOT&E will consider helmet safety criticality as an additional consideration in estab-
lishing the AQL requirement for LAT RTP during the next protocol revision. The next
protocol revision will consider recommendations from the on-going National Academies
review of helmet test protocols. This study should be complete by December 2013.

DoD OIG Response
DOT&E and PEO Soldier’s comments were fully responsive, and no additional comments
are required.




                                                                                     DODIG-2013-079 │ 15
Finding C




                 Finding C
                 Coordination of Helmet Test Protocols
                 In accordance with authorizing statutes, DOT&E has the authority to establish test
                 standards for personnel protective equipment such as the ACH. However, despite the
                 significance and broad impact of these protocols, DOT&E did not explicitly consult with
                 heads of the Military Departments to provide them an opportunity to comment on new
                 or changed test protocols and did not adequately document the adjudication of inputs
                 provided by program offices and subject matter experts in the staffing process. The
                 program office also did not solicit comments on the helmet test protocols with the helmet
                 vendors and DCMA.



                 Discussion
                 DoD Directive 5141.02, “Director of Operational Test and Evaluation (DOT&E),” states
                 that DOT&E shall prescribe policies and procedures for the conduct of Live Fire Test
                 and Evaluation (LFT&E) and delegate authority to approve LFT&E strategies. LFT&E
                 strategies include PPE testing such as hard body armor, soft body armor, and helmets.

                 When DOT&E was developing the body armor test protocol, the National Academies
                 Phase II report recommended that DOT&E conduct due diligence before formally
                 adapting a statistically based body armor protocol. The National Academies Phase III
                 report recommended that:

                            DOT&E should provide briefings to and receive feedback from all
                            stakeholders in DoD (military service Program Executive Officers,
                            testers, users) and non-DoD organizations (National Institute of
                            Justice, National Institute of Standards and Technology, certified
                            private testing laboratories, vendors) concerning the statistical-
                            ly based protocol. DOT&E should act on feedback from the com-
                            munity to improve the proposed protocol as necessary, to ensure
                            that testing terms and concepts make sense to a nontechnical
                            audience, and it should promote the use of the statistically based
                            protocols in future national standards for body armor testing, as
                            appropriate.




16 │ DODIG-2013-079
                                                                                                                                       Finding C



DoD Leadership Involvement
DOT&E stated that the helmet test standards are policies informed by a technical
understanding of both the testing process and the capabilities of the item under test. They
also provided drafts of the combat helmet FAT and LAT protocols to various stakeholders
for comments. DOT&E sent the FAT protocol draft on August 17, 2010, and it underwent
two additional review iterations.14 DOT&E also sent the LAT protocol draft on February
25, 2011.15 Subject matter experts within these organizations provided comments on
the protocol drafts in areas such as test range set up, sample size, and ballistic impact
locations and measurements.

Although we found records of subject matter expert involvement (including PEO Soldier),
we found no coordinated input from DoD leadership, including heads of the Military De-
partments. There was no objective evidence that DoD leadership and heads of the Mili-
tary Departments were given the opportunity to provide input to policies that establish
an acceptable level of risk (that is, acceptable number of ballistic penetrations) to the
ACH.


Documenting Inputs
PEO Soldier submitted nine nonconcurrences (four critical and five substantive) to
DOT&E after reviewing the first draft of the combat helmet FAT protocol. PEO Soldier was
concerned that a statistically based protocol that allows any percentage of the helmets
to be penetrated on any shot during FAT could result in unintended consequences. PEO
Soldier further recommended that the number of allowed penetrations be vetted before
mandating the new protocol. DOT&E responded to these nonconcurrences by stating that
“discussion will occur.” We found no evidence that DOT&E incorporated PEO Soldier’s
input and/or held technical discussions with PEO Soldier personnel on its nonconcur-
rences. DOT&E also stated that there was no further action on these nonconcurrences
and provided no official response to the nonconcurrences.16



	14	
        Recipients of the FAT protocol drafts were departments within the Marine Corp Systems Command (MCSC), Naval Sea
        Systems Command (NAVSEA), Army Research Laboratory Survivability/Lethality Analysis Directorate (ARL/SLAD), PEO
        Soldier Program Manager Soldier Protective Equipment (PM SPE), Deputy Under Secretary of the Army Test and Evaluation
        Office (DUSA-TE), DLA Troop Support Clothing and Textile, ATEC, U.S. Special Operations Command (USSOCOM) and
        Institute for Defense Analysis (IDA).
	 15	
        Recipients of the LAT protocol drafts were U.S. Army Acquisition Support Center (USAASC), U.S. Marine Corps (USMC),
        Developmental Testbed Center (DTC), PM SPE, DLA, U.S. Army Training and Doctrine Command (USA TRADOC), USSOCOM,
        U.S. Army Materiel Command (USA AMC), National Institute of Standards and Technology (NIST), IDA, Federal Bureau of
        Investigation (FBI) Academy, U.S. Air Force Acquisition (USAF SAF/AQRE), ARL/SLAD, ATEC, DUSA-TE, and Office of the Chief
        of Naval operations (OPNAV).
	 16	
        During the course of our assessment, PEO Soldier stated that they were in agreement with the 90/90 standard on the basis
        that the legacy FAT RTP (0 penetrations out of 20 shots) equates to 89/90 when analyzed against the Clopper-Pearson
        method.




                                                                                                                                DODIG-2013-079 │ 17
Finding C



                 We also reviewed documents to determine the origin of the of the FAT RTP 90/90
                 standard and LAT RTP of 4 percent AQL, including reports and studies conducted by
                 both the National Academies and ATEC on the hard body armor detailed in Finding A.
                 DOT&E stated that in addition to the influence of the National Academies and ATEC
                 studies on hard body armor, the RTP FAT and LAT requirements were recommended by
                 NRC statisticians. DOT&E further stated that the National Institute of Justice (NIJ) also
                 expressed that a 90/90 standard was high performing and a good protocol for any PPE.
                 However, there were no documented records of the recommendations from the NIJ or
                 the NRC, specifically for the helmet test protocols. DOT&E stated that recommendations
                 were mostly informal and undocumented.


                 Coordination with ACH Vendors
                 Although the National Academies made the recommendation to receive vendor feedback
                 for developing body armor test protocol, the same due diligence of receiving vendor
                 feedback still applies to developing the helmet test protocol. However, vendors were
                 not asked to review and provide input to the helmet protocols. Vendors have years of
                 experience in design and manufacturing of helmets. Significant investment in research
                 and development for increased performance, weight reduction, and cost saving have been
                 performed by vendors, acquiring a depth of knowledge that could have been useful in
                 developing the helmet protocols.

                 Another recommendation from the Phase III report states that any revision to the proto-
                 col should be evaluated to ensure that there is no detrimental impact on the quality and
                 performance of an already successful product. The Phase III report specifically states:

                            In particular, because manufacturers have strong incentives to
                            build armor that has a high chance of passing FAT and LAT, there is
                            some chance that the change in test protocol could have unintend-
                            ed impacts on body armor design and/or performance. Given the
                            success of the current body armor in the field, changes in testing
                            protocols should be made with deliberate caution to ensure that
                            plate performance is maintained (or improved) while also ensur-
                            ing that the best science is brought to bear on testing body armor.

                 Similar to the body armor, the currently fielded ACHs have also performed well against
                 their intended threats. ACH vendors also disclosed that they are capable of performing
                 well above the RTP test protocol requirements.




18 │ DODIG-2013-079
                                                                                                 Finding C



Role of the Program Manager
The DOT&E helmet test protocols do not explicitly allow program managers to modify
the stringency of the helmet test protocols. Program managers may need protocol
modifications as they manage programmatic risks associated with the use of new
manufacturing processes, materials, or design. DOT&E has expertise in testing but lacks
the expertise in ACH design and hardware.

Program managers’ limited authority over testing protocols of their products is in conflict
with the requirements of DoDI 5000.02, “Operation of the Defense Acquisition System.”
DoD Instruction (I) 5000.02 defines the authority of the program manager as covering
all design, manufacturing, test, and all other program life cycle processes. In addition,
the testing protocols can limit the program manager’s ability to use a balanced approach
to manage programmatic risks such as the use of new manufacturing processes and the
use of new materials or alternate designs. These changes may necessitate changes to the
testing protocols, which the program manager does not control.


DOT&E Assessment Discussion
DOT&E committed to provide proposed protocols to the senior leadership of the affected
Services for comment. The Director, DOT&E, will consider and resolve comments received.

DOT&E stated that they do not work directly with vendors; this is the purview of program
offices. However, DOT&E has and will continue to encourage program offices to provide
vendors the opportunity to submit through program offices any comments on proposed
protocols.

Currently, DOT&E allows protocols to be changed and made more stringent, provided
that program managers submit a well-justified request for approval. DOT&E will state
that changes are permitted in future protocol updates, but DOT&E retains the authority
to approve such changes.


Recommendations
C.1. Due to the significance and broad impact of these protocols, we recommend that
DOT&E ensure that affected organizations, including heads of the Military Departments,
are consulted in developing the protocols and have an opportunity to provide input
on new or changed test protocols. DOT&E should also ensure that inputs received are
documented and adjudicated.




                                                                                          DODIG-2013-079 │ 19
Finding C



                 C.2. We recommend that PEO Soldier solicit input from helmet vendors and DCMA on
                 new or changed test protocols. PEO Soldier should also ensure that inputs received are
                 documented and adjudicated.

                 C.3. We recommend that DOT&E include an explicit statement in future protocol revisions
                 that allows program managers to modify the test protocols, provided that program
                 managers submit a well-justified request for approval.


                 DOT&E and PEO Soldier Comments
                 DOT&E will ensure affected organizations, including heads of Military Departments, are
                 consulted in developing new or changed protocols. Responses will be adjudicated by the
                 DOT&E and documented. A request to both the Secretary of the Army and Secretary of
                 the Navy to review the current protocol resulted in no recommendations for changes to
                 the protocol by both Departments.

                 PEO Soldier will solicit feedback from our industry partners as well as DCMA prior to the
                 implementation of any new testing protocol. Industry feedback together with feedback
                 from many various engineers working for PEO Soldier will be reviewed and adjudicated.
                 All adjudicated feedback will be provided to DOT&E for review and may warrant the con-
                 tinued modification of existing and future rest protocols and standards.

                 The next protocol revision will include an explicit statement that permits program man-
                 agers to increase the test protocol stringency following approval by DOT&E of a well-jus-
                 tified request to do so.


                 DoD OIG Response
                 DOT&E and PEO Soldier’s comments were fully responsive, and no additional comments
                 are required.




20 │ DODIG-2013-079
                                                                                                  Finding D




Finding D
Evaluation of Aggregate Test Results
The FAT RTP acceptance was based on an aggregate of all test outcomes under varying
conditions to achieve 90/90, or 17 penetrations out of 240 shots. This could result in
passing FAT, despite test results showing clusters of failures of a unique helmet size or in
a particular test environment.



Discussion
The helmet test protocol aggregates the FAT RTP test results across environmental
conditions, helmet sizes, and shot locations and applies the Clopper-Pearson method.
The Clopper-Pearson method employs binomial distribution in the calculation of
bounds of the confidence interval. In general, the sum of binomial distributions do not
yield a binomial distribution, unless the failure rates are the same for each individual
environmental condition and helmet size. Because the failure rates are unknown for each
individual environmental condition, we cannot assume that the aggregated test result
represents a binomial distribution and therefore the test results cannot validate that the
90/90 standard has been met.


Implications of Aggregating Test Results
In a July 13, 2012 letter, DOT&E provided a response to Representative Slaughter’s inquiry
into the FAT test protocol. The DOT&E response stated that,

            … the new protocol samples a large enough number of helmets for
            testing to demonstrate statistically significant differences in per-
            formance due to environmental conditions (such as hot and cold
            temperatures), among helmet sizes, and among different vendors’
            designs …

A review of the DOT&E test data analysis methods identified that the results are aggregated
across different environmental conditions, helmet sizes, and shot locations. Analyzing
aggregated test data when determining whether the results pass or fail RTP FAT masks
statistically significant differences in performance due to environmental conditions,
helmet sizes, and different vendor designs.




                                                                                           DODIG-2013-079 │ 21
Finding D



                 The following scenarios illustrate the implications of aggregating test results using envi-
                 ronmental conditions as the only variable, without introducing the other variables such
                 as helmet sizes, shot locations, and vendor designs.

                 Scenario 1 demonstrates that individually, all of these conditions fail to meet a 90/90
                 standard. But if the individual results are combined and the Clopper-Pearson method is
                 applied, the combined sample results meet the standard.

                 Table 5. Scenario 1
                             Conditions    Number of Shots      Number of Failures       LCL of P(nP)
                      Ambient                     60                     5                   85%
                      Hot                         60                     4                   87%
                      Cold                        60                     4                   87%
                      Seawater                    60                     4                   87%
                       Total                     240                    17                   90%


                 Scenario 2 demonstrates the possibility of 17 failures during ambient conditions. The test
                 results in ambient conditions fail to meet the standard, while the combined result of 17
                 failures out of 240 shot appears to meet the standard.

                 Table 6. Scenario 2
                             Conditions    Number of Shots      Number of Failures       LCL of P(nP)
                      Ambient                     60                    17                   63%
                      Hot                         60                     0                   96%
                      Cold                        60                     0                   96%
                      Seawater                    60                     0                   96%
                       Total                     240                    17                   90%


                 In both the scenarios, the combined result of 17 failures out of 240 shots meet the 90/90
                 standard. This could result in passing FAT, despite test results showing failures in a
                 particular test environment.


                 DOT&E Assessment Discussion
                 DOT&E was aware of these implications, and committed to perform additional statistical
                 analysis beyond that specified in the protocol. With respect to aggregation of helmet test
                 data, DOT&E will analyze whether significant clusters of inadequate performance exist.
                 DOT&E will use either logistic regression analysis or two-sample tests of proportions to
                 analyze the probability of no penetration for significant clusters. Significant results would



22 │ DODIG-2013-079
                                                                                                  Finding D



trigger additional testing to determine whether helmet protocol requirements were met
by condition. DOT&E will issue a memorandum describing the technical details of this
analysis and will subsequently incorporate this approach in a published update to the
existing test protocol.

DOT&E and PEO Soldier will adopt this approach with the current lightweight ACH
solicitation, but not as a published change to the test protocol specified in the current
solicitation. Although the solicitation will not be changed, DOT&E will analyze the test
results obtained under the current solicitation to see if significant differences (based on
environment, helmet size, or shot location) exist, and if so, will conduct additional testing
to determine the FAT RPT criteria under the test condition of interest. If the results
demonstrate poor performance, DOT&E will not field the lightweight ACH design.


Recommendations
D.1. We recommend that DOT&E and PEO Soldier describe the method of identifying
and addressing statistically significant differences in performance due to environmental
conditions, helmet sizes, shot locations, and different vendor designs for all FAT results
under the DOT&E helmet test protocol.

D.2. We recommend that PEO Soldier and DLA consider the contractual implications of
not fielding an ACH design that passes FAT yet shows significant clusters of inadequate
performance.


DOT&E and PEO Soldier Comments
DOT&E has developed procedures for identifying and addressing statistically significant
differences in performance. DOT&E has asked the National Academies, as part of its re-
view of the helmet test protocols, to comment on the adequacy of these procedures to
identify significant differences in performance. DOT&E will incorporate these proce-
dures (as revised based on feedback from the National Academies) in the next revision
of the protocol. DOT&E has provided a copy of these procedures to the DoD OIG staff for
information.


DoD OIG Response
DOT&E and PEO Soldier’s comments were fully responsive. We reviewed DOT&E’s de-
tailed procedures for identifying and addressing statistically significant differences in
performance and have additional points for consideration. However, no additional com-
ments from DOT&E and PEO Soldier are required.



                                                                                           DODIG-2013-079 │ 23
Finding D



                 The DOT&E strategy to identify significant differences and trends in performance is a
                 statistical approach to determine or trigger whether additional testing is required. In
                 addition to this approach, we recommend that PEO Soldier designate the triggering of a
                 cluster analysis as a nonconformance, requiring further engineering evaluation and dis-
                 position. Failures under certain conditions can be attributed to design, manufacturing,
                 material weaknesses, or test equipment/test conduct variability. The root cause of these
                 failures and subsequent mitigation plans should be a product of an established failure
                 analysis and corrective action process that involve the vendor, PEO Soldier’s Quality As-
                 surance representatives, and DCMA.




24 │ DODIG-2013-079
                                                                                              Appendices


Appendix A
Scope and Methodology
We conducted this assessment from July 2012 through February 2013 in accordance
with the Council of the Inspectors General on Integrity and Efficiency, “Quality Standards
for Inspection and Evaluation.” Those standards require that we plan and perform the
assessment by obtaining sufficient and appropriate evidence to provide a reasonable
basis for our conclusions. We believe that the evidence obtained provides a reasonable
basis for our conclusions.

To assess the basis for the RTP requirements and determine whether the RTP require-
ments are appropriate for the ACH, the DoD OIG team assessed three different areas: ACH
test protocols and standards, test processes, and production and procurement processes.

We conducted interviews with DOT&E, PEO Soldier, DLA, DCMA, ATEC, and ACH vendors.
We wrote summaries after each meeting that were signed and agreed upon by attending
organizations.

We conducted assessments at DOT&E and PEO Soldier to determine PEO Soldier’s
relationship with DOT&E and other organizations involved in the procurement of ACHs.
We also analyzed information on the ACH contracting and procurement processes,
requirements and specification, oversight at test and manufacturing facilities, and test
implementation plans. Most importantly, we analyzed details of the legacy ACH test
protocols, details of the DOT&E helmet test protocols, the rationale for its established
requirements, and the organizations involved in its development.

We conducted the assessment at U.S. Army Test and Evaluation Center (ATEC) in Aberdeen,
Maryland, which will be conducting future lightweight ACH testing. The objective of the
assessment was to understand the ACH test processes and set-up, and to understand
ATEC’s input to the DOT&E helmet test protocols.

We also performed assessments at ACH vendor facilities. The objectives of the assess-
ments were to understand the ACH manufacturing process and determine the impact of
the new DOT&E test protocols to the vendors. We also verified to determine if vendors
provided input to the DOT&E helmet test protocols.


Use of Technical Assistance
The Quantitative Methods Division provided support and statistical expertise in the anal-
ysis of DOT&E’s First Article Testing protocol. Specifically, QMD analyzed the Resistance
to Penetration requirements and statistical method to determine acceptability of combat
helmets.

                                                                                         DODIG-2013-079 │ 25
Appendices




                 Appendix B
                 Representative Slaughter’s Letter to the DoD Office of
                 Inspector General




26 │ DODIG-2013-079
     Appendices




DODIG-2013-079 │ 27
Appendices
                      true value of p is close to 1. What we prefer to report with some degree of confidence is a range
                      of plausible values for p, i.e., an interval estimate for the true probability of success.
                      When p is believed to be high, there is usually little interest in placing an upper confidence limit
                 Appendix            C a lower limit, known as an LCB for p, is useful since the LCB represents
                  on its value. However,
                      a conservative estimate on the probability of success. Because the LCB is based on the random

                 Clopper-Pearson Method
                      sample of Bernoulli trials, it too is a random variable. The LCB is a function of X and N which
                      satisfies the probability statement
                 The Army Research Laboratory published a paper on March 2011 titled “A Comparison of
                                               1  P  LCB  X ; N   p  .                   (1)
                 Various Methods Used to Determine the Sample Size Requirements for Meeting a 90/90
                 Reliability Specification,”
                   Many authors have proposedby methods
                                                David W.for This paperLCBs
                                                            calculating explains the Clopper-Pearson
                                                                            (and confidence intervals) for Method
                                                                                                           the
                 as binomial
                    follows:parameter p. In the ensuing subsections, we introduce three of them, and calculate the
                      required sample size for a zero-failure test that satisfies the 90/90 reliability specification.

                      2.1   The Clopper-Pearson Method
                      The Clopper-Pearson (1934) method for binomial confidence intervals is popular for its relative
                      ease to calculate. In general, the confidence interval limits,  LCP , U CP  , are solutions to the
                                   N
                                      
                                       N                               X
                                                                           N i                 
                                     i  L 1  L              and    U CP 1  U CP   . If at least one success
                                                         N i                               N i
                      statements            i
                                            CP      CP          
                                  i X                        2     i 0  i                  2
                      and one failure are observed among the samples, both endpoints of the interval can be expressed
                      as functions of percentiles from F distributions. For an LCB, with X  N , the calculation
                      simply reduces to LCP  N  . Clopper-Pearson intervals are often referred to as “exact” intervals
                      since they are derived from exact probability statements and not any distributional
                      approximations. As such, the Clopper-Pearson is often touted in introductory statistics
                      textbooks.
                      To satisfy the 90/90 reliability specification using the Clopper-Pearson method, we seek the
                                                                         1
                      minimum value of N which satisfies .90  .10 N . Taking the logarithm of both sides of this
                                                      ln .10 
                      inequality, we have ln .90             which leads to the solution N  ln .1 ln .9  
                                                                                                                 21.85 .
                                                          N
                      Since N must be an integer, the number of zero-failure trials required to meet the 90/90
                      specification under the Clopper-Pearson method is rounded up to 22.

                      2.2   Wilson Score Method
                      The method developed by Wilson (1927) is based on an inversion of the score test for p, and
                      results in a more complex formula for the limits of the confidence interval:




                                                                             2




28 │ DODIG-2013-079
                                                          Appendices




Appendix D
Notice of Concern and Notice of Concern Resolution




                                                     DODIG-2013-079 │ 29
Appendices




30 │ DODIG-2013-079
     Appendices




DODIG-2013-079 │ 31
Appendices




32 │ DODIG-2013-079
     Appendices




DODIG-2013-079 │ 33
Appendices




34 │ DODIG-2013-079
     Appendices




DODIG-2013-079 │ 35
Appendices




36 │ DODIG-2013-079
     Appendices




DODIG-2013-079 │ 37
Appendices




                 Appendix E
                 Office of the Director, Operational Test and Evaluation
                 and Program Executive Office Soldier Comments




38 │ DODIG-2013-079
     Appendices




DODIG-2013-079 │ 39
Appendices




40 │ DODIG-2013-079
                                                                   Acronyms and Abbreviations



Acronyms and Abbreviations
      ACH Advanced Combat Helmet
     ADM Acquisition Decision Memorandum
     ANSI American National Standards Institute
      AQL Acceptable Quality Level
      ASQ American Society for Quality
     ATEC Army Test and Evaluation Center
    DCMA Defense Contract Management Agency
    DLA TS Defense Logistics Agency Troop Support
   DOT&E Office of the Director, Operational Test and Evaluation
      ECH Enhanced Combat Helmet
       FAT First Article Testing
   FMJ RN Full Metal Jacket Round Nose
      OIG Office of Inspector General
       LAT Lot Acceptance Testing

       LCL Lower Confidence Level

    LFT&E Live Fire Test and Evaluation
      LWH Lightweight Helmet
      NOC Notice of Concern
      ORD Operational Requirements Document
    PASGT Personnel Armor System, Ground Troops
      PEO Program Executive Office
   PM/SPE Product Manager, Soldier Protective Equipment
     P(nP) Probability of No Penetration
      PPE Personnel Protective Equipment
      RTP Resistance to Penetration




                                                                              DODIG-2013-079 │ 41
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
